 AmPlan Eligibility Review
Quic\( Reaction Audit Report


      Final Report
                                                  NATIONA L R,\I LROAD PASSf.I'iGF.n con p on'\TJO~
                                                            l OG Sl r~~ 1 NE, 3WJOO, Washill&IOn, DC 20002
                                                                        T<I 202-906 "1560 F~, 202-906 "156,1




   Date      September 29, 2009                   From          Gmy E. Gl owacki, Deputy IG, Audits
             Paula Portel-, Acting VI',
     To                                     Department          Offi ce of Inspector Geneml - Aud its
             Human Rcsolll'ccs
                                                Subj ect        AmPlan Eligibility Review
                                                                QuicJ, Reaction Audit - Final Repo,·t
                                                      cc


Thank you for your cooperation with the Aml'l an Eligibility Review. Enclosed is the Final
Andit Repol't on the review of the AmPlan Eligibility Review Report. Our objectives were to
determine whether only eligible dependents of Amtrak employees are receiving health and
welfme benefit s and if adequate internal controls are in place to ensure acclll'Ilcy and to detect
and prevent unnecessary expenditlll'es by Amtrak 1,)1' ineligible dependents. The results of our
audit were discussed with Michael Duncan, Scnior Director, Compensation and Benefi ts.

The Intern ati onal Standards for the ProCessional Practice of Internal Aud iting (the auditing
standards) established by the Institute ofIntel'llal Auditors, Scetion 2500 - Monitoring Progress,
requires that we "must establish and maintai n a systcm to monitor the disposition of results
conullunieated to management ," and "must establi sh a follow-up process to monitor and ensure
that management actions have been effcetively implemented or that seni or mmlagcmcnt has
accepted the risk of not taking action."

Action Rcgllil"cd

Tn order to comply with the auditing standards, II writtenl'cs ponse is required within 30 days
regarding management 's planned corrective actions to address the audit recommendations in this
report. In your res]lonse, please provide the following:

    I. Indicate what spcciflc ac tions will be laken by your dcpnrtment to add ress the i1nding                0 1'
       implement our recommendations;

   2. Name and title orthe ind iv idual rcsponsiblc and held accountable ror ensuring that corrccti vc
      actions are taken, documented, and opemting as intended by management; and

   3. The timcll'amc when corrective actions will be ta ken and the date managcment expccts
      corrective acti on will be completed.
                                                                                                Memo
                                                                                       August 17, 2009
                                                                                           Page 2 of2

If management believes that not taking action is appropriate and senior management accepts the risk
of not taking action, please state the rational for management's decision. Please notc that we may
communicate management's decision not to take action to those charged with governance (Le.,
the Board of Directors).

Amtrak OIG is required to make this report available to the public under the Inspector General
Reform Act of2008, 110 P.L.409: 122 Stat. 4302. To the extent that you belicve that RCpOlt contains
confidential or proprietary information that should be withheld from public release, you must take the
following action no later than October 13, 2009: 1) highlight any words 01' phrases recommended
for redaction; and 2) provide a written detailed justification for each of your recommendations. lfyou
do not provide writtcn recommendations by October 13, 2009, the report will be made publicly
available without your redaction on the date specified on the Report.

Lastly, please sign the response. The individual signing the response should be the persoll to whom
the cover letter is addressed even though the preparation of the actual response may have been
delegated.lfyou have any questions, I can be reached at ATS 777-4560.




k$~
Gary . GlowackI
Deputy Inspector General- Audits

Attachments




                                1
         AmPlan Eligibility Review
        Quick Reaction Audit Report

                  Final Report




             Report Addressed To:

              PAULA PORTER
 ACTING VICE PRESIDENT, HUMAN RESOURCES

    GO MASSACHUSETTS AVENUE, SUITE 2E
          WASHINGTON, DC 20002




               Report Issned By:

NATIONAL RAILROAD PASSENGER CORl'ORATlON
   OFFICE OF INSPECTOR GENERAL - AUDITS
               10 G STREET, N.E.
           WASHINGTON, DC 20002

     DATI<: OF nI<:PORT: September 29, 2009

         REPORT NUMBER: 103-2009

 PUIlLIC AVAILABILITY DATE: Octuber 29, 2009
                      Amtrak Office of Inspcctor Gencral (OIG) examined the health and welfare
  WH Y WE DID
                      benefits emollment process for its agreement-covered employees. Om
  n TTS A V DIT
                      examination disclosed that Amtrak should implement a dependent verification
  This audit was      process to cnsurc that employees' dependents are eligible to receive Amtrak's
  conducted to        health and welfare benefits.
  dctcrm inc
  whether only        Amtrak contracts with Automatic Data Processing, Inc. (ADP) to administer and
  eligible            maintain all health and welfarc plan data eligibility files. ADP transmits data
  dependents of       npdates via electronic interface to Amtrak health and welfare third party
  Amtrak              administrators (TPA).
  employees are
  receiving
                        Amtrak's employecs'        United Healthcare is Amtrak's largest TPA and
  hea lth and            dependcnts arc not        provides administrative services for the group health
  welfare                 verified to cnsurc       program to approximately l7,604 employees and
                        eligibility for l!Calth    39,496 dependents and is required to work with ADP
  benefits and if
  adequate              and welfarc benefits.      for all eligibility reconciliation projects.
  internal
  contro ls are in    Amtrak employees select health benefits by going through Amtrak Benefits
  place to ensure     Service Center website, (www .am trakbeneJl ts.com). which is administered by
  accuracy and        ADP. Thc information entered into amtrakbcnefits.com is the basis for
  to detect and       determining eligibility.
  prevent
  unnecessary             >-   The audit found that Amtrak is not verifying that employees' dependents
  expenditures                 are eligible to receive health and welfare benefits.
  by Amtrak for
  ineligible
  dcpendcnts.




Additionally, om audit disclosed that United Hcalthcurc does not require proof of student status for
dependcnt children, identified as full -time collegc studcnts betwccn the ages of 19 and 25. United
Healthcare only requires verbal acknowledgemcnt from thc employee rather than the submission of
actual proof of student status. Amtrak's policy states "A depcndent child that is a full-time studentnecds
proof of student status and this must be provided to the TPA each semester to continue healthcare
coverage." As a rcsult of Amtrak not validating the family status change, there is a potential to pay
healthcal'e cost for incligible dcpendents.

Due to the deficicncies found in thc vcriJication of Amtrak's employees' dependents, we recommend
that I-Iuman Resourccs: (I) provicie clear policies ancl procedures to renect Amtrak's ultimate
rcsponsibility for collecting documents and verifying dependent eligibility, (2) review all additions and
deletions to thc bcnefits system to cns\ll'e the accmacy and appropriatcness of the changcs, anci (3)
ens\ll'e all TPAs are validating dependents eligibility based on Amtrak's policies and procedures.
BACKGROUND


RESULTS OF AUDIT

  Finding: Documcntation to Suppol't Employces' Dependents

  Eligibility to Rcccive Hcalth and Wclfarc Bencfits ...................................................................       2



RECOMMENDATIONS                                                                                                                5


MANAGEMENT COMMENTS                                                                                                            5

APPENDICES

  A. Objective, Scope and Methodology                                                                                          8

  B. Special Circumstanccs Affecting This Audit, Evaluation

      of Intcl'llal Controls, find Prior Audit Covcrage ...................................................................    9
  C, Othct' Information - Unitcd HcnIthcal'c

      Student Verification Lcttcl'                                                                                            10
                                  Aml'lan Eligibility Review
                                 Quick Reaction Audit Report
                                      Report /I 103·2009




Amtrak administers a sell~insurcd hcalth benefits plan (known as "AmPlan") for agreement·
covered employees and their dependents, utilizing third party administrators (TPAs) to manage
claims processing, provider networks, utilization review, and membership functions. In calcndar
year 2008, $208 million dollars was paid in health expenditlll'es for 17,604 employees and
39,496 dependents.

Amtrak uses the following TPAs: United Healthcare (UHe) and Tufts Health Plan (for the State
of Massachusetts) processes and pays medical, mental health and substance abuse claims.
Caremark provides prescription selvices. Vision Selvice Plan (VSP) provides vision scrvices.
Aetna National Railroad Dental Plan (Aetna Dcntal) and Delta Dental (for policc only) provides
dental services. Aetna Life Inslll'ance provides life and accidental death and dismembermcnt
insurance; and, Alere provides disease management.

Duc to the number of TPAs involved under AmPlan and the large member population, Amtrak
uses Automatic Data Processing, Tnc. (ADP) National Account Services to administer and
maintain all health and welfare plan data eligibility files. ADP transmits data updates via
electronic interface to Amtrak health and weltirre TPAs.

In August 2007, Aetna, who administers the Raill'Oad National Dental Plan, eonductcd a
Dependent Audit - Verification of Depcndent Inforll1ation of Amtrak dependents for agrccmcnt-
employccs. Aetna reviewed 10,912 employees and 23,317 dependents and requcsted verification
of dependent eligibility. Aetna found that 44% (7,837) of the employees responded to the request
of which 25% (1,977) returned infill'lnation that resulted in termination of bcncfits. Of thc 10,912
cmployees, 15% (1,658) of the employees were non-responders and II % (1,239) were partial
responders that provided incomplete or did not vedfy all dependents.

Wc had a discussion with the Servicc Delivery Manager at ADP regarding the Aetna audit and it
was disclosed that as of April 2009, 7,042 ineligible dependents were terminated for benefits due
to their failure to submit supporting documentation.




                                            Page I
                                  Aml'lan Eligillility Rcvicw
                                 Quiek Reaction Audit Rcport
                                      Repo)·t 11103-2009




Find ing: Documentation to Support Employces' Dependents Eligibility to Reccivc Hcalth
and Welfare Benefits

Amtrak's I-Iuman Reso\1l'ces has not established an effective verification review process to
ensure its employees' dependents are eligible to receive health and welfare benefits.

Although Human Reso\1l'ccs has policies and proccdures that provides guidance about who is
eligible for benefits, [-Iuman Resources does not have a system in place to vcrify that employees'
dependents arc eligible to receive health and welfare benefits

Enrollment Process

When a new cmployee is hired they complete new hire paperwork (W2, 1-9, Form 2000
Employee Data Form), and a Flash Pass application. They provide proof of identification such as
a driver's license and social security card or a passport. The employee is entered into Amtrak's
SAP system by Human Resources and the data is electronically transferred to ADP. The
employee is mailed a benefits election package within two weeks of their first day of work and
has 31 days from their first day of employment to select benefits (health, dental, life insnrance,
etc.), for themselves and their dependents. Upon receipt of the benefits election packct, the
employee logs into amtrakbenefits.com to select their health and welfare bencfits.

The Amtrak Employee Benefits Union Handbook (handbook) provides guidance on dependnnt
eligibility; to include; the definition of a dependent, lite events that affect your benefits, the
eligibility and participation process, details including what expenses are covered, how to file a
claim, and overall information on how to use your benelits. If the employee has any dependents,
the employee adds their dependents by entering the relevant intonnation such as nnme,
relationship of dependent, date of birth, etc., into amtrakbenefits.com. The data is subsequently
transferred from ADP to thc TPAs. At this point, the clU'ollment process is considered completc
and the eligibility determination is automatically made without any documentation 01'
veri fication of the employees' dependent.

In addition to adding dependents during the new hire process, an cmploycc can add and/or
update their dependents when they have an IRS-qualified family status change, (e.g. marriage or
birth ofa child).

The handbook states, "When adding a dependent due to getting married, proof of documentation;
such as, a copy of thc marriage certificate needs to be sent to the Amtrak Benefits Service
Center." The handbook fmther states "All changes lllUSt be consistent with the family status
change and that yO\! may be asked to provide proof of the marriage."




                                           Page 2
                                   AIllPlan Eligibility Review
                                  Quick Reaction Audit Report
                                       Rep01'l1l103-2009




Amtrak's policy states, "All changes must be consistent with the family status change and that
you will need to send written proof of the birth, adoption, legal guardianship, etc., to the Amtrak
Benefits Service Centcr." Additionally, it states if you are adding stepchildren and they mcet the
definition of an eligible dependent, you need to provide proof of marriage, such as a copy of the
marriagc certificate to the Amtrak Bcncfits Service Center. However, Amtrak's policy is
inconsistent with ADP's contract that states, "Amtrak will no longer require documentation from
employees who add dependents within the 30-day window. Employees outside the 30-day
window may need to provide documentation, and this will be treated as an exception.
Documentation will be imaged by ADP and hard copies will not be retained."

As a result of Amtrak not having an effective dependent verification and validation process,
there is a potcntial for Amtrak to pay higher healthcare cost for ineligible dependents.

Because of the inadequate controls found in the verification of Amtrak's employees' dependents
eligibility process, Amtrak's Human Resources should provide clear policies and procedures to
ensure there is an effective verification process in place for all dependents that receive health and
wei fare benefi ts

College Students

Amtrak employees are not providing documentation to UHC as required in Amtrak's polices and
procedures for their dependent children, identi fied as college students between the ages of 19 and
25, that receive benefits.

Amtrak's policies and procedures state "When yom dependent child reaches the maximum age
for covcrage (19th birthday unless full-time student, then 25th birthday), medical and dental
covcragc for that dependent will automatically ene\." Additionally, "If your dependent child is
bctween thc agcs of 19 and 25 and is a full-time student, you will need to provide proof of
student status to the insl1l'ance carrier each semester to continue coverage for that dependent
child."

According to the Operations Account Manager at UHC (insurance carrier), the customer care call
center is responsible for requesting and updating thc dcpcndent's student status. Student status
information is requested twice a year, fall and spring semesters (December for January t11rough
August and August for September through December).




                                             Page 3
                                   Aml'lnll Eligibility Rcvicw
                                  Quick Rcactlon Audit Rcpol't
                                       Rcpol'lli 103-2009


Upon rcceipt of a medical claim for depcndcnts between the ages of 19 and 25, UHC sends a
letter of verification of studcnt status. (See Appendix 3) Afier the letter is receivcd, most of the
employees will call UHC and provide a verbal response to the student verification letter.
However, only a few employees have completed the form and mailed it back to UUC.

Amtrak's policies and proccdmcs rcqnircs its' employees to submit proof of student status to
UHC. Howcver, UHC does not address or en forec the actual proof of student status. Instead, they
document the phone conversation and aeecpt the verbal information provided by thc cmployee as
valid and correct.

Additionally, Amtrak's dependent eligibility requirement states dependents must be registered
students attending school full-time, (12 credits or more per semester or term) and are primarily
dependent on the employee for care and their financial support. This requirement is not
addressed in UHC's student verification letter and as a result UI-IC can makc an erroneous
determination in validating the student's full-time status.

As a result of employee's not providing proof of full-time status and UrIC not requiring or
validating the actual proof of student status, health and welfare bcnefits for college-aged
dependents may inappropriately be provided and Amtrak may be incurring unneecssary costs for
ineligible dependents.

Allltral( 's Contracts with ADI' and UHC

We reviewed the contract between Amtrak and ADP. The ADP contract consists of two parts,
the general provisions and the Benefits Administration Manual (BAM). The BAM is composed
of several sections that deal with speci fic areas of the health and welfare benefits plan and plan
administration. The manual defines the specifics of the plan design from an administrative point
of view and includes procedures for the enrollment process, ongoing rccord kccping, payroll, and
accounting proccsscs.

The contract states "in accordancc with thc Benefits Administration Manual (BAM), ADP is
responsible for administering anclmaintaining all health and welfare plan data eligibility files for
each plan, and transmitting Cl1I'rcnt data updates via established, electronic interface to Amtrak's
health and welfare vendors." Additionally, "thc BAM provides a specific description of the
scrvices provided by ADP, and in thc cvent of any connict between the contract and the BAM,
the BAM prevails."

Although, the contract between ADP and Amtrak states AD!' is responsible I'01' administering the
plan and maintaining all health and wclfare plan data eligibility, it is not clcar as to who is
responsible for collecting and verifying supporting documentation to vcrify eligibility.

The UHC contract, Amtrak's largest 'I'PA, provides administrative services ami dclivcrablcs in
accordance with all terms and conditions of the contract for the Amtrak Union active, retiree, and
COBRA participant's group health program. The contract provides for medical coverage for


                                            Page 4
                                  Aml'lan Eligibility Review
                                 Qnick Reaction Audit Report
                                      Rcport # 103-2009


approximatcly 17,604 employecs and 39,496 dependents. Although, Amtrak outsolll'ces the
eligibility administration to ADP, UHC and is required to work with ADP for all eligibility
reconciliation projects and other projects, as requested.

The UHC contract incorporates Amtrak's Union Benefits Handbook. Amtrak's handbook
provides guidance on when yom depcndcnt child is no longer eligible to receive health and
welfare benefits and the actions you must take to continue medical coverage. For college-aged
dependents, Amtrak's policy requires their employees' to submit proof of student status to UHC
each semester to continue coverage. Our audit noted UHC does not require Amtrak's employees
to submit written proof of student status for continued coverage for their dcpendent(s). As a
result, benefits for ineligible dependents may be inappropriately provided and Amtrak may be
incul'l'ing increased healthcare costs.




We reconunend that Human Resourccs:

   (1) Provide clem' policies and procedl11'es to reflect Amtrak's responsibility or the
       delegated responsibilities for collecting documents and verifying dependent
       cligibility.
   (2) Update the contmcts with the TPAs to reJlect thc specific lines of1'csponsibilitics for
       dependent verification.
   (3) Review all additions and deletions to the benefits system to ensure the acc\II'aey and
       appropriateness of the changes.
   (4) Ensure that all TPAs are validating dependents eligibility based on Amtrak's policies
       and p1'ocedUl'cs.
   (5) Rcquire that UHC updatc their student verification letter. The letter should reflect the
       actual number of credit homs the student is enrolled in order to validatc their full-time
       status. Also, the letter should request documentation supporting and validating the
       responses provided by the employee.




Management agrees that verification of dependent eligibility is a process that needs to be
implemented. Prior to the OIG audit, Amtrak's 1·luman Resomces Benefits unit had already
explored scveral options to improve the dependents eligibility verification process. These options
are undcr consideration include using an outside vendor to provide dependent eligibility




                                            Page 5
                                  AmPlan Eligillility Review
                                 Quick Reaction Audit Rcport
                                      Rcport #103-2009


verification serviccs. Human Resources will implement a dependent verification process in fY
2010.

In addition, management agrees that the college-student verification process needs to be
systematically reviewed and revised as appropriate.

United Healthcare is responsible for verifying student eligibility. United requires written 0"
verbal confirmation 1I'om the employee conceming the dependent and does not rcquire
documentation tl'Om the college or university. In the past, United Healthcare performed research
on the documentation issue and changed their requirements based on the following:

   a) The documentation was provided on almost all of the requests and therefore resulted
      in an unnecessary increase in administrative cost to the sponsor.

   b) The follow-ups to employees to obtain this information were wmetimes out of their
      control (at the mercy of the school to provide this documentation).

   c) Thcrc wcrc long delays n the providers being paid which caused a hardship on the
      employees (collections agencies etc) .

                                   •I

Based on humanrcsources rcsponse, we acknowledge that Amtrak's Human Resources has t:1ced
challenges with dependent verification eligibility and recognizes the need to improve their
process. Our position is, Amtrak Human Resources is ultimately responsible in ensuring all of its
employees and their dependent(s) are verified and eligible to receive and maintain coverage. If
I-!umaJl Resources delegate any of its responsibilities to an outside vendor, there should be
specific language in the contract requiring the venclor to obtain the specific original proof of
documentation in ordcr to validate the employee and/or their dcpcndent(s) eligibility.

The Hunwn Resources Department should also update it s policies and proeedmcs to include a
specific process lor verifying eligibility. This process should include cffective communication to
Amtrak's employees rcgarding their responsibility III thc timely submission of original
documentation supporting their dependent's eligibility, as well as verifying automated eligibility
data. Accordingly, we believe om reconunenciations are appropriate.

We woulcllike to express om appreciation fol' the cooperation provided to the audit team dlll'ing
the audit.




                                           Page 6
                                 AmPlan IWgibility Review
                                Quick Reaction Audit Report
                                     Report # 103·2009



Audit Staff:

Alan M. Klein, Senior Director - Audits
Denizejoice Hammond, Director - Audits
Renita Ellis, Manager - Healthcare Audits



Alan M. Klcin
Scnior Director - Audits




                                            Page 7
                                  AmPlon EligilJility Review
                                 Quiek Reaction Audit Report
                                      Rcpol'lll103.2009




Ohjectivc

Thc objectivc of the audit was to detcrminc whcthcr only eligible dependents of Amtrak
cmployces are receiving health and welfare benefits and if adequate internal controls are in place
to ensl1l'C accuracy and to dctcct and prcvcnt unnccessary expenditures by Amtmk for incligiblc
dependents.

Scope and Methodology

The scopc of the audit consisted of 0111' rcview of Amtrak's Agreement-Covered Employee
Dcnefits Hondbook, ADP and lJI-IC contracts, and the benet1ts ell1'ollmcnt/eligibility proccss.
Although, all TPAs receive eligibility information from ADP, the scope of 0111' rcview was
limited to UHC, Amtrak's largest TI'A. Spceit1cally, wc looked at thc Human Resources
vcrificationreview process in determining dependcnt cligibility.

Wc conducted 0111' audit from Septcmbcr 2008 through ,lunc 2009 in accordancc with thc
Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our t1ndings and conclusions based on our audit objcetives_ We
believe that the evidence obtained provides a reasonable basis tor 0111' findings and conclusions
based on our audit objectives:

To accomplish our objective, we:

    ~   Reviewed Amtrak human rcsources policics and procedures to gain an understanding
        of the eligibility process for ncw employees and their dependents.
    ~   Conducted interviews with human resourccs personnel to obtain an undcrstanding of
        their responsibilities regarding dependent processing with the various TPi\s.
    ~   Interviewed UI-IC key personnel to obtnin anundcrstanding ofthcir cligibility proccss
        for dcpcndents between the ages of 19 and 25.
    ~   lntcrvicwed ADP key persolUlCl to obtain an understanding of the amtrnkbcnel1ls.com
        process, the eligibility data, and the transfer of information.
    ~   Performed n test of umtrakbencfits.colll to obtain an understanding thc dcpcndcnt
        cJll'ollment process.




                                           Page 8
                                 AmPlan Eligillility Rcvicw
                                Quick Ucaction Audit UCJlOl·t
                                     Repo!'t # 103-2009




Special Circulllstances Affecting This Audit

Due to the severity of the deficiencies in this report with intel'llal controls in the process of
Amtrak dependent eligibility this quick reaction audit report is bcing issued to corrcct the
deficiencies listed in this report immediately. The "AmP Ian Eligibility Review Audit," will
continue to assess the impact of Amtrak employce's dcpendents that may inappropriately be
receiving bcncfits.

Evaluation of Intel'nal Contl'ols

This audit assessed the internal controls of Amtrak's processing of employees and their
dependents for health and wei fare benefits.

PriOI' Audit Coverage

None




                                           Page 9
                                                  AmPIRII Eligibility Review
                                                 Quick Reaction Audit Rcpol'!
                                                      Repo)'t # 103-2009




               UN ITED       II EALT II CA RI~                 STU D ENT VElH FICATION UTl'ER

JVe l't!c('iI'ed the 0[,0\1(/ claim. /Jr/ort>)I'e eWI jJrocess 'his claim. H'e Heed to know {rlhe I'lIliell/ is
{I slur/ent of WI accredited college ()J' trade schon/ OIU//O), has olhel' /tell/III C(J\'(,I'Clgr, P/e(JSt' mail
lilis lel/el' lI'ilh YOIII' 1" ',\/lolISe,\' 10 Ihe ahol'" 1''''111'11 IIddl'ess:

Is Ihe palh'lIllisled ({hove 1/ sllldelll ({I lIIl acclw/il"d col/eXe r>r Il'IIdl' ,Ie/WOlf
    ( ) (lye,l, ple({se /1m vide t//(', /i,I/oIl'illg il!li>l'lllll/irJII:

 NaillI' of',lC/wol:
 School Addl'c.u:
[)lIles CIII'Ill/l'd:          /        /       10         /        /

     () (lllf), I,/M,I'!' JI/'Ovidl' Ihe la.ll d({ll' tllal/emlllllce:               /     /

 Does Ihe /llIlie lll have Cf)I'<'I'age /lllIlel'         lilly   olhel' heallh helle.!ill'lall or ill.l'II)'{/lI('e polic)'~
     )'1'.1'          No

If .I'e Y, pi1'11.1'1' pro vide Ihe ./i,I/1I1I' i IIg ;, !/imllal illll:
     - {'olicrholder',I' lIalllC :                                          naIl' 4bil'lh:
     - NUIII£'   of iJl.\1I1'C1I1Ce ClHUpllI1Y:
     - 1'//(1//1' IIl1l11h,'I':
                                :;-----
     - 1';(I;'Clil'" dale (~/,cf)ve/,ilge :
     - /)lIle II'h('1I cOI'''l'IIge 111(1)' ,I lOP !lapJllicah/e:

Plell"(f he lIIllllre 'ha/ YOII IUIl'e ·15 clay.\ .Ii'om r('ceivi"g Ihis !('lIer If) r(,"fume/. When we I'eceil't'
Ihi.l' il!limllalioll, 1\'(, lI'illlI1akl' a d"ci,lioll lI'ilhill 15 dllY.I', U,!/"I'II/IIIII"')', i/'yoll do 1/(/1 /ll'Ilvide
,hi" iI!/i>rmal io/1 Willlill -15 cllIYs, IIle IIlll)' dCIIY lhis cllIim he(,lIlI,\'(, \I'e do HoI hllve t'JUJ/I.t:1I
iI!lh/'llw lioll 10 make II dl'cisioll, (/'.1'1111 hal'<' Illleslioll.l' 11110111 lhis 11'1/1'1', pll'lIs<' ('(II/ ( '/l.I'IIiI/WI'
('1/)'('1111/)(' 11/11111",)' lisll'd 011 yo III' 1//('/1/1",), I j) I'llI'd. T/umk YOII,

U III" /llIli( '1I1 i.l' 110 IlIlIge)' II ,11111/('))1, "II'II\(' 1I01if.i' y01l1' 1'1I1/'loye)' a ,l' .1'01111 lI\ 1'0' liMe, !I IIII'
palielll is "i,whled, a.l'k yo 1/1' elll/llo),el' !fIliI' di\'(fhilily IJIl'e/,l' III" glli""'illl',I' wilhilllllei)' ('(11111'11<'1 ,
111111' palielll is 1101 eli!!,ihll' 10 he /JIII'I o(roll)' /,1111/, III' 01' sll" IIII1Y he 1Ib1" 10 olllilill illdi\'i"l1l1l
('(}\'I'I'II,£:I' Ihmllgll Oil" of' (1lIill'd 111'11/1111'11/'1' 's III1i/illl,'d cOIII/wl/i('\',




                                                                Page 10
